<html>
<title> - TERRORISM AND THE EMP THREAT TO HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 109-30]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-30

           TERRORISM AND THE EMP THREAT TO HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2005

                               __________

                           Serial No. J-109-5

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
21-324                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
LINDSEY O. GRAHAM, South Carolina    RICHARD J. DURBIN, Illinois
                Stephen Higgins, Majority Chief Counsel
                 Steven Cash, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
    prepared statement...........................................    43

                               WITNESSES

Fonash, Peter, National Communications System Deputy Manger 
  (Acting), Department of Homeland Security, Washington, D.C.....     3
Pry, Peter, Senior Staff, Congressional EMP Commission, 
  Washington, D.C................................................     5
Wood, Lowell, Commissioner, Congressional EMP Commission, 
  Livermore, California..........................................    10

                       SUBMISSIONS FOR THE RECORD

Fonash, Peter, Deputy Manager (Acting), National Communications 
  System, Department of Homeland Security, Washington, D.C., 
  prepared statement.............................................    32
Pry, Peter, Senior Staff, Congressional EMP Commission, 
  Washington, D.C., prepared statement...........................    46
Wood, Lowell, Commissioner, Congressional EMP Commission, 
  Livermore, California, prepared statement......................    51

 
           TERRORISM AND THE EMP THREAT TO HOMELAND SECURITY

                              ----------                              


                         TUESDAY, MARCH 8, 2005

                              United States Senate,
                      Subcommittee on Terrorism, Technology
                                      and Homeland Security
                                 Committee on the Judiciary
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee, presiding.
    Present: Senator Kyl.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. This hearing of the Subcommittee on 
Terrorism, Technology, and Homeland Security of the Senate 
Judiciary Committee will come to order.
    Our hearing today is on ``Terrorism and the EMP Threat to 
Homeland Security.'' Let me indicate that conflicts of interest 
keep some of my colleagues from being here right now, though 
several indicated that they were going to try to stop by. The 
record of the hearing, of course, will be very important. 
Unfortunately, a conference of Republicans was called, there is 
a vote going on right now, and some of my Democratic colleagues 
had some conflicts. But hopefully, we will have some other 
members join us here before too long.
    The subject, as I said, is the electromagnetic pulse and 
its potential impact as a tool of terrorism against the United 
States. An attack using EMP, which is a phenomenon created by 
the detonation of a nuclear weapon, could be devastating to 
this country and the public and Congress need to pay more 
attention to that danger. That is the reason for the hearing 
here today.
    Earlier this year, CIA Director Porter Goss gave chilling 
testimony about missing nuclear material from storage sites in 
Russia that may have found its way into terrorists' hands. FBI 
Director Mueller confirmed new intelligence that suggests that 
al Qaeda is trying to acquire and use weapons of mass 
destruction in some form against us. And the 9/11 Commission 
report stated that our biggest failure was one of imagination. 
No one imagined the terrorists would do what they did on 
September 11.
    I want to explore new and imaginative possibilities of 
terrorist attacks and methods, and that is why we are here 
today, to examine a possibility that poses a grave threat and a 
crippling impact to our way of life.
    Last year, the EMP Commission found that EMP was one of a 
small number of threats that could hold our society at risk of 
catastrophic consequences. The effects of an EMP could 
potentially shock, damage, or even destroy electrical systems 
that fall within the striking range of a nuclear detonation. 
And because the United States is heavily dependent on 
electrical systems to provide all basic services, an EMP attack 
has the potential to have a cascading effect on all aspects of 
American society. And finally, particularly because they lack 
ICBM capability, terrorists could nevertheless use lesser 
technology to launch an EMP weapon over the United States.
    The Commission's report found that our infrastructure, such 
as electrical power, telecommunications, energy, financial 
systems, transportation, emergency services, water purification 
and delivery, food refrigeration, all of these things and more 
were vulnerable to EMP attack. And in the event of such an 
attack, those infrastructures would be rendered unusable, thus 
inflicting widespread disruption or failure on a national 
scale. The death toll from such an attack is almost 
unthinkable.
    Unfortunately, the House Armed Services Committee hearing 
on the Commission report occurred on the date of the release of 
the 9/11 Commission report. As a result, the hearing and the 
EMP report received virtually no coverage. Thus, we thought it 
was appropriate to reinitiate that discussion with our hearing 
here today. We want to review the findings of the Commission, 
understand the current risk we face, as well as the steps we 
may need to take and are taking to prepare for such an attack.
    We have three very distinguished witnesses with us here 
today. Dr. Lowell Wood, Jr., is a member of that Commission, a 
Commissioner on the National Commission to Assess the EMP 
Threat to the United States. He is a member of the Technical 
Advisory Group of the U.S. Senate Select Committee on 
Intelligence, a member of the Undersea Warfare Experts Group of 
the U.S. House of Representatives Committee on Armed Services, 
a member of the U.S. Nuclear Strategy Forum, a Visiting Fellow 
at the Hoover Institution at Stanford University, and an 
officer and member of the Board of Directors of the Fannie and 
John Hertz Foundation.
    He is also a member of the Laboratory Directors Technical 
Staff, University of California, Lawrence Livermore National 
Laboratory, where he has held numerous positions since 1972. He 
has received numerous awards and prizes for his work and is the 
author of several hundred publications.
    When I introduce Dr. Wood, I will also ask you please to 
introduce other members of the Commission, who I understand are 
with us here today, as well.
    Dr. Peter Vincent Pry was one of the CIA's chief experts on 
Soviet plans for EMP attack. During the Cold War, he developed 
much of what the U.S. Government knows about Soviet planning 
for nuclear war, and in the post-Cold War period, his work has 
been central to the U.S. Government's understanding of evolving 
Russian threat perceptions and military doctrine.
    He is the Director of the United States Nuclear Strategy 
Forum, a nonprofit foundation established to advise Congress on 
the future threat environment and on the role of nuclear 
weapons in U.S. national security policy, and recent served on 
the EMP Commission staff, where he was the chief analyst on 
foreign views of EMP attack. Dr. Pry holds two Ph.D.s, one in 
history, the other in international relations. He, too, has 
authored several books on national security and military 
issues.
    And finally, Dr. Peter Fonash from the Department of 
Homeland Security, National Communications Acting Deputy 
Manager. He has been a member of the Senior Executive Service 
since 1998, has served in both technical and policy positions 
in the Federal Government. He earned three degrees from the 
University of Pennsylvania, a B.S. in electrical engineering, 
an M.S. and Master's of Business Administration at the Wharton 
School. He also holds a Doctor of Philosophy degree from George 
Mason University's School of Information Technology and 
Engineering. His 24 years in Federal service were preceded by 4 
years in private industry.
    We have a very distinguished panel, as you can see, with us 
here today. I would also like to recognize the other members of 
the EMP Commission who are with us here, and as I said, when I 
introduce Dr. Wood, I would like to ask those of you who are 
here to stand and be recognized. Their contribution to help us 
better understand the EMP threat is significant.
    I also want to thank Senator Feinstein, who cannot be with 
us today, for her work, along with her staff, and for her 
continuing contributions to the work of this Subcommittee.
    We hope that even though there are several conflicts that 
prevent colleagues from being here, there isn't such big news 
that finally we can't at least get some understanding of this 
potential threat out to the public so that we can better 
understand those kinds of threats that we may face in the 
future.
    Let me begin our testimony with Dr. Peter Fonash, and then 
we will go to Dr. Peter Pry, and then to Dr. Lowell Wood. Dr. 
Fonash, the floor is yours, and your statements will be put in 
the record in full. Feel free to quote from them or deviate 
from them however you wish.

 STATEMENT OF PETER M. FONASH, ACTING DEPUTY MANAGER, NATIONAL 
 COMMUNICATIONS SYSTEM, U.S. DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Fonash. Mr. Chairman, thank you very much. My name is 
Peter Fonash. I am the Acting Deputy Manager of the National 
Communications System, NCS. I am honored to appear before you 
today to discuss the issues surrounding the vulnerabilities of 
our Nation's critical telecommunications infrastructure to EMP.
    The NCS, as you know, is an interagency body that brings 
together the telecommunications assets of the Federal 
Government that are of significance to national security and 
emergency preparedness, NS/EP. The NCS is responsible to ensure 
the existence of a national telecommunications structure that 
is responsive to the NS/EP needs of the Federal Government and 
is capable of providing survivable NS/EP telecommunications 
services in all circumstances, including conditions of crisis 
or emergency.
    Since the height of the Cold War, the development and 
maintenance of survivable national telecommunications has been 
an enduring national objective. To help achieve this objective, 
President Kennedy in 1963 established the NCS to provide 
necessary communications for the Federal Government under all 
conditions, ranging from a normal situation to national 
emergencies and international crises, including nuclear attack.
    When put in place at the height of the Cold War the larger 
NS/EP goal was promotion of a survivable and resilient national 
telecommunications infrastructure. The primary focus was on 
state-based largely monolithic threat. The NS/EP 
telecommunications role was to enable the U.S. Government to 
organize national response efforts to those threats.
    In the post-9/11 environment, however, the U.S. faces more 
asymmetric threats and potential targets expanded to include 
civilian, economic, and other critical targets. This change, 
fundamental in terms of actors, intent, capability, and 
tactics, creates new challenges for the U.S. Government.
    Regarding EMP, Part 205 of Title 47, Chapter 2, of the Code 
of Federal Regulations establishes the NCS as the focal point 
within the Federal Government for all EMP technical data and 
studies concerning telecommunications. That is a function we 
have carried out for the last 20 years.
    Emerging from the tactical and strategic concerns of the 
Cold War, analyses of potential resources of electromagnetic 
disruption of telecommunications services have historically 
focused most sharply on the effects produced by a nuclear EMP. 
Yet while nuclear EMP remains the only mechanism to affect 
widespread electromagnetic disruption to telecommunications, it 
is important to recognize that the advance of technology has 
yielded many more tools capable of producing singular 
telecommunications electromagnetic disruptive effects, known as 
TEDE, on a more limited but nevertheless significant scale. 
Such tools are, as a general matter, often less costly than are 
those necessary to create an EMP. Accordingly, consonant with 
its EMP telecommunications mission, NCS has expanded its 
analytic activities to include the full range of TEDE sources, 
including but not limited to EMP.
    With respect to EMP specifically, the NCS has, over the 
past two decades, conducted numerous studies, simulations, and 
tests of various elements of the telecommunications 
infrastructure to electromagnetic interference. The information 
derived from these tests was used by the equipment 
manufacturers to implement vulnerability mitigation changes in 
the design of the switching systems. The results of these tests 
led to the conclusion that our Nation's telecommunications 
network will experience serious disruption from EMP, but will 
be rapidly restored. NCS priority communications programs will 
provide critical communication capabilities during the 
restoration period.
    Finally, as a part of the interim National Infrastructure 
Protection Plan, NIPP, recently released by DHS, the NCS serves 
as the sector-specific agency for the telecommunications 
sector. The NCS is responsible for assessing and mitigating 
vulnerabilities to the national telecommunications 
infrastructure. Accordingly, recognizing communication's 
pivotal role in deterring and/or recovering from an attack, the 
NCS has developed a vulnerability mitigation approach that is 
designed to address the entire spectrum of potential 
disruptions to the nation's telecommunications and ensure 
critical communications will be possible under all conditions. 
The NCS does not look at EMP or other sources of TEDE in a 
vacuum, but rather in a larger context of the full range of 
potential threats to the telecommunications infrastructure.
    In summary, the existence of EMP effects has been known 
since the 1940's. We have tested thoroughly our current 
generation of core telecommunications switches and have 
determined that there is minimal lasting EMP effect on these 
switches. Furthermore, most of our core communications assets 
are in large, very well constructed facilities which provide a 
measure of shielding. This situation will evolve as we move to 
Next Generation Networks, NGN, but we are monitoring this 
network evolution by testing critical components of the NGN and 
leveraging DOD testing. Furthermore, the NCS has programs and 
activities that are designed to minimize the impact of the 
entire spectrum of potential disruptions, including EMP.
    In moving forward, the NCS has a proven history of 
preparing for and responding to all types of threats. We have 
demonstrated an ability to develop effective tools and programs 
combined with a trusted working relationship with industry to 
continually improve the hardness and survivability of our 
Nation's communications network.
    This concludes my prepared statement. I would be happy to 
answer questions you may have at this time or any future time.
    Chairman Kyl. We will take all the testimony and then we 
will come back and do questions at that time.
    [The prepared statement of Mr. Fonash appears as a 
submission for the record.]
    Chairman Kyl. Dr. Pry?

STATEMENT OF PETER VINCENT PRY, SENIOR STAFF, CONGRESSIONAL EMP 
                  COMMISSION, WASHINGTON, D.C.

    Mr. Pry. The EMP Commission sponsored a worldwide survey of 
foreign scientific and military literature to evaluate the 
knowledge and possibly of the intentions of foreign states with 
respect to electromagnetic pulse attack. The survey found that 
the physics of EMP phenomena and the military potential of EMP 
attack are widely understood in the international community, as 
reflected in unofficial and official writings and statements.
    The survey of open sources over the past decade finds that 
knowledge about EMP and EMP attack is evidenced in at least 
Britain, France, Germany, Israel, Egypt, Taiwan, Sweden, Cuba, 
India, Pakistan, Iraq under Saddam Hussein, Iran, North Korea, 
China, and Russia. Numerous foreign governments have invested 
in hardening programs to provide some protection against 
nuclear EMP attack, indicating that this threat has broad 
international credibility.
    At least some of the new nuclear weapons states, notably 
India, are concerned that their military command, control, and 
communications may be vulnerable to EMP attack. For example, an 
Indian article citing the views of senior officers in the 
defense ministry concludes, I quote--Mike, if you could put up 
the first quotation--``The most complicated, costly, 
controversially and critically important elements of nuclear 
weaponization are the C3I systems. Saving on a C3I system could 
be suicidal. With a no first use policy, the Indian 
communication systems have to be hardened to withstand the 
electromagnetic pulses generated by an adversarial nuclear 
first strike. Otherwise, no one will be fooled by the Indian 
nuclear deterrent.''
    Many foreign analysts perceive nuclear EMP attack as 
falling within the category of electronic warfare or 
information warfare, not nuclear warfare. Indeed, the military 
doctrines of at least China and Russia appear to define 
information warfare as embracing a spectrum ranging from 
computer viruses to nuclear EMP attack.
    For example, consider the following quote from one of 
China's most senior military theorists, Su Tzu-Yun, who is 
credited by the PRC with inventing information warfare, 
appearing in his book, World War, The Third World War--Total 
Information Warfare, and I quote--thank you, Mike, second--
``With their massive destructive, long-range nuclear weapons 
have combined with highly sophisticated information technology 
and computer technology today and warfare of the looming 21st 
century. Information war and traditional war have one thing in 
common, namely that the country which possesses the critical 
weapons, such as atomic bombs, will have first strike and 
second strike retaliation capabilities. As soon as its computer 
networks come under attack and are destroyed, the country will 
slip into a state of paralysis and the lives of its people will 
ground to a halt. Therefore, China should focus on measures to 
counter computer viruses, nuclear electromagnetic pulse, and 
quickly achieve breakthroughs in those technologies in order to 
equip China without delay with equivalent deterrents that will 
enable it to stand up to the military powers in the information 
age and neutralize and check the deterrence of Western powers, 
including the United States,'' end quote.
    Some foreign analysts, judging from open source statements 
and writings, appear to regard EMP attack as a legitimate use 
of nuclear weapons because EMP would inflict no or few prompt 
civilian casualties. EMP attack appears to be a unique 
exception to the general stigma attached to nuclear employment 
by most of the international community in public statements. 
Significantly, even some analysts in Japan and Germany, nations 
that historically have been most condemnatory of nuclear and 
other weapons of mass destruction, in official and unofficial 
forums, appear to regard EMP attack as morally defensible.
    For example, a June 2000 Japanese article in a scholarly 
journal, citing senior political and military officials, appear 
to regard EMP attack as a legitimate use of nuclear weapons. 
The quote is above. Quote, ``Although there was little chance 
that the Beijing authorities would launch a nuclear attack 
which would incur the disapproval of the international 
community and which would result in such enormous destruction 
that it would impede post-war cleanup and policies, a serious 
assault starting with the use of nuclear weapons which would 
not harm humans, animals, or property, would be valid. If a 
nuclear weapon was detonated 40 kilometers above Taiwan, 
electromagnetic wave would be propagated which would harm 
unprotected computers, radar, and IC circuits on the ground 
within a 100-kilometer radius, and the weapons and equipment 
which depend on communications electronics technology, whose 
superiority Taiwan takes pride in, would be rendered combat 
ineffective at one stroke. If they were detonated in the sky in 
the vicinity of Ilan, the effects would also extend to the 
waters near Yanakuni, so it would be necessary for Japan, too, 
to take care. Those in Taiwan, having lost their advanced 
technology capabilities, would end up fighting with tactics and 
technology going back to the 19th century. They would 
inevitably be at a disadvantage with the PLA and its 
overwhelming military force superiority.''
    An article by a member of India's Institute of Defense 
Studies Analysis openly advocates that India be prepared to 
make a preemptive EMP attack, both for reasons of military 
necessity and on humanitarian grounds. This is the next quote. 
Quote, ``A study conducted in the U.S. during the late 1980's 
reported that a high-yield device exploded about 500 kilometers 
above the ground can generate an electromagnetic pulse of the 
order of 50,000 volts over a radius of 2,500 kilometers around 
the point of burst, which would be collected by any exposed 
conductor. Such an attack will not cause any blast or thermal 
effects on the ground below, but it can produce a massive 
breakdown in the communication system that is certain that most 
of the land communication networks and military command and 
control links will be affected and it will undermine our 
capability to retaliate. This, in fact, is the most powerful 
incentive for preemptive attack, and a high-altitude exo-
atmospheric explosion may not even kill a bird on the ground.''
    Although India, Pakistan, and Israel are not rogue states, 
they all presently have missiles and nuclear weapons, giving 
them the capability to make EMP attacks against their regional 
adversaries. An EMP attack by any of these states, even if 
targeted at a regional adversary and not the United States, 
could collaterally damage U.S. forces in the region and would 
pose an especially grave threat to U.S. satellites.
    Many foreign analysts, particularly in Iran, North Korea, 
China, and Russia, view the United States as a potential 
aggressor that would be willing to use its entire panoply of 
weapons, including nuclear weapons, in a first strike. They 
perceive the United States as having contingency plans to make 
a nuclear EMP attack and as being willing to execute those 
plans under a broad range of circumstances.
    Russian and Chinese military scientists in open source 
writings describe the basic principles of nuclear weapons 
designed specifically to generate an enhanced EMP effect that 
they term super-EMP weapons. Super-EMP weapons, according to 
these foreign open source writings, can destroy even the best 
protected U.S. military and civilian electronic systems.
    Chinese military writings are replete with references to 
the dependency of United States military forces and civilian 
infrastructure upon sophisticated electronic systems and to the 
potential vulnerability of those systems. For example, consider 
this quote from an official newspaper of the PLA, already up 
there. Quote, ``Some people might think that things similar to 
the Pearl Harbor incident are unlikely to take place during the 
information age, yet it could be regarded as the Pearl Harbor 
incident of the 21st century if a surprise attack is conducted 
against the enemy's crucial information systems, command, 
control, and communications by such means as electromagnetic 
pulse weapons. Even a superpower like the United States, which 
possesses nuclear missiles and powerful armed forces, cannot 
guarantee its immunity. In their own words, a highly 
computerized open society like the United States is extremely 
vulnerable to electronic attacks from all sides. This is 
because the U.S. economy, from banks to telephone systems and 
from power plants to iron and steel works, relies entirely on 
computer networks. When a country grows increasingly powerful 
economically and technologically, it will become increasingly 
dependent on modern information systems. The United States is 
more vulnerable to attacks than any other country in the 
world.''
    Russian military writings are also replete with references 
to the dependency of United States military forces and civilian 
infrastructure upon sophisticated electronic systems and to the 
potential vulnerability of those systems. Indeed, Russia made a 
thinly-veiled EMP threat against the United States on May 2, 
1999. During the spring of 1999, tensions between the United 
States and Russia rose sharply over Operation Allied Force, the 
NATO bombing campaign against Yugoslavia. A bipartisan 
delegation from the House Armed Services Committee of the U.S. 
Congress met in Vienna with their Russian counterparts and the 
Duma International Affairs Committee, headed by Chairman 
Vladimir Lukin. The object of the meeting was to reduce U.S.-
Russia tensions and seek Russian help in resolving the Balkans 
crisis. During the meeting, Chairman Lukin and Deputy Chairman 
Alexander Shaponov chastised the United States for military 
aggression in the Balkans and warned that Russia was not 
helpless to oppose Operation Allied Force.
    The next quote is there. Quote, ``Hypothetically, if Russia 
really wanted to hurt the United States in retaliation for 
NATO's bombing of Yugoslavia, Russia could fire a submarine-
launched ballistic missile and detonate a single nuclear 
warhead at high altitude over the United States. The resulting 
electromagnetic pulse would massively disrupt U.S. 
communications and computer systems, shutting down 
everything.'' Note that quote is from 1999. That is the last 
semi-official nuclear threat made to the United States by 
anyone.
    Iran, though not yet a nuclear weapons state, has produced 
some analysis weighing the use of nuclear weapons to destroy 
cities, compared to information warfare, that includes 
electromagnetic pulse for the destruction of unprotected 
circuits. An Iranian analyst describes terrorist information 
warfare as involving not just computer viruses, but attacks 
against using electromagnetic pulse.
    An Iranian political-military journal in an article 
entitled, ``Electronics To Determine Fate of Future Wars,'' 
suggests that the key to defeating the United States is EMP 
attack. Quote, ``Advanced information technology equipment 
exists which has a very high degree of efficiency in warfare. 
Among these, we can refer to communication and information 
gathering satellites, pilotless planes and the digital system. 
Once you confuse the enemy communication network, you can also 
disrupt the work of the enemy command and decision making 
center. Even worse, today, when you disable a country's 
military high command through disruption of communications, you 
will, in effect, disrupt all the affairs of that country. If 
the world's industrial countries fail to devise effective ways 
to defend themselves against dangerous electronic assaults, 
then they will disintegrate within a few years. American 
soldiers would not be able to find food to eat, nor would they 
be able to fire a single shot,'' end quote.
    Iranian flight tests of their Shahab-3 medium-range missile 
that can reach Israel and U.S. forces in the Persian Gulf have 
in recent years involved several explosions at high altitude, 
reportedly triggered by a self-destruct mechanism on the 
missile. The Western press has described these flight tests as 
failures because the missiles did not complete their ballistic 
trajectories. Iran has officially described all of these same 
tests as successful. The flight tests would be successful if 
Iran were practicing the execution of an EMP attack.
    Iran, as noted earlier, has also successfully tested firing 
a missile from a vessel in the Caspian Sea. A nuclear missile 
concealed in the hold of a freighter would give Iran, or 
terrorists, the capability to perform an EMP attack against the 
United States homeland without developing an ICBM, and with 
some prospect of remaining anonymous. Iran's Shahab-3 medium-
range missile, mentioned earlier, is a mobile missile and small 
enough to be transported in the hold of a freighter. We cannot 
rule out that Iran, the world's leading sponsor of 
international terrorism, might provide terrorists with the 
means to execute an EMP attack against the United States.
    In closing, a few observations about the potential EMP 
threat from North Korea. North Korean academic writings 
subscribe to the view voiced in Chinese, Russian, and Iranian 
writings that computers and advanced communications have 
inaugurated an information age during which the greatest 
strength and greatest vulnerability of societies will be their 
electronic infrastructures. According to North Korean press, 
Chairman Kim Chong-Il is himself supposedly an avid proponent 
of this view.
    The highest ranking official ever to defect from North 
Korea, Hwang Chang-Yop, claimed in 1998 that North Korea has 
nuclear weapons and explained his defection as an attempt to 
prevent nuclear war. According to Hwang, in the event of war, 
North Korea would use nuclear weapons, quote, ``to devastate 
Japan to prevent the United States from participating in the 
defense of South Korea. Would it, the United States, still 
participate even after Japan is devastated? That is how they 
think.''
    Although Hwang did not mention EMP, it is interesting that 
he described North Korean thinking about nuclear weapons 
employment as having strategic purposes, nuclear use against 
Japan, and not tactical purposes, nuclear employment on the 
battlefield in South Korea. It is also interesting that, 
according to Hwang, North Korea thinks it can somehow devastate 
Japan with its tiny nuclear inventory, although how precisely 
this is to be accomplished with one or two nuclear weapons is 
unknown.
    Perhaps most importantly, note that the alleged purpose of 
a North Korean nuclear strike on Japan would be to deter the 
United States. At the time of Hwang's defection in 1998, North 
Korea's longest-range missile then operational, the No Dong, 
limited North Korea's strategic reach to a strike on Japan. 
Today, North Korea is reportedly on the verge of achieving an 
ICBM capability with its Taepo Dong-2 missile, estimated to be 
capable of delivering a nuclear weapon to the United States.
    In 2004, the EMP Commission met with very senior Russian 
military officers who are experts on EMP weapons. They warned 
that Russian scientists had been recruited by Pyongyang to work 
on the North Korean nuclear weapons program. They further 
warned that the knowledge and technology to develop super-EMP 
weapons had been transformed to North Korea and that North 
Korea could probably develop these weapons in the near future, 
within a few years. The Russian officer said that the threat to 
global security that would be posed by a North Korea armed with 
super-EMP weapons is unacceptable.
    The senior Russian military officers, who claimed to be 
expressing their personal views to the EMP Commission, said 
that while the Kremlin could not publicly endorse U.S. 
preemptive action, Moscow would privately understand the 
strategic necessity of a preemptive strike by the United States 
against North Korea's nuclear complex in order to prevent North 
Korea from achieving a super-EMP weapon that would threaten 
global civilization.
    This concludes my statement. Thank you for the opportunity 
to share this information with the U.S. Senate.
    Chairman Kyl. Thank you, Dr. Pry.
    [The prepared statement of Mr. Pry appears as a submission 
for the record.]
    Chairman Kyl. Dr. Wood, would you please begin by 
introducing anyone who is here representing the Commission 
besides yourself?

   STATEMENT OF LOWELL WOOD, COMMISSIONER, CONGRESSIONAL EMP 
               COMMISSION, LIVERMORE, CALIFORNIA

    Mr. Wood. Thank you very much, Mr. Chairman. Ladies and 
gentlemen, my fellow Commissioners and I thank you for the 
opportunity to testify today on the findings and 
recommendations of the Commission to Assess the Threat to the 
United States From Electromagnetic Pulse Attack created by the 
Congress in Title 14 of Public Law 106-398.
    I am here acting today for Dr. William Graham, the Chairman 
of the Commission, who is prevented from being present today 
and asked me to convey his regrets and respects to the 
Committee. I am accompanied by three of my colleague 
Commissioners, who I would like to introduce very briefly, Dr. 
Henry Kluepfel, Commissioner of the EMP Commission, Dr. Gordon 
Soper, EMP Commissioner, and the senior member of the EMP 
Commission, Dr. John S. Foster, Jr., whose service in the 
technology components of the national defense dates back to the 
beginning of World War II.
    Chairman Kyl. And Dr. Foster probably has testified more 
times before Congress than I have attended hearings, I might 
add.
    Mr. Wood. Dr. Foster was doing very notable things for the 
technological components of the national defense the year that 
I was born, sir.
    Chairman Kyl. That doesn't make him old. It is just that he 
started at a very young age.
    [Laughter.]
    Mr. Wood. And gave very distinguished service throughout 
the over 60 years that he has been so devoted to the national 
welfare, sir.
    At the direction of the Congress, the EMP Commission worked 
for 2 years in the discharge of its statutory mandate. These 
efforts have included conducting actual experiments to test the 
potential vulnerability of modern electronic systems to EMP, 
and were informed by a global survey of foreign scientific and 
foreign military literatures to assess the knowledge and, if 
possible, the intentions of rogue states and other nations with 
respect to EMP attack, which Dr. Pry, who led this effort for 
the Commission, just very aptly summarized for the Committee.
    The Commission enjoyed access to all information in the 
possession of the government in the course of its work and was 
supported by top-quality studies and analyses on the part of 
many cognizant government and contractor organizations, as 
indeed was specified in the mandating legislation.
    The bottom line is that several classes of potential 
adversaries, including terrorist groupings, have or can acquire 
the capability to attack the United States with a high-altitude 
nuclear weapon generated electromagnetic pulse. A determined 
adversary can achieve an EMP attack capability without having a 
high level of either military or nuclear sophisticated. For 
example, a Scud missile launched from a freighter off the 
Atlantic coast of the United States could constitute a platform 
that would enable a terrorist group to mount an EMP attack 
against roughly half of the United States in population terms. 
Scud missiles can be purchased inexpensively--they are of the 
order of $100,000--by anyone, including private collectors in 
the world's arms markets.
    Terrorists might buy, steal, or be given a ``no 
fingerprints'' nuclear weapon. For example, North Korea has 
demonstrated a willingness to sell both missiles and nuclear 
materials remarkably promiscuously. Iran, the world's leading 
sponsor of international terrorism, is widely reported to have 
a nuclear weapons program that is more advanced than previously 
suspected and is known to have successfully test launched a 
Scud missile from a vehicle in the Caspian Sea, as Dr. Pry 
noted, a launch mode that could be adapted, as indeed Secretary 
of Defense Don Rumsfeld has noted twice in public, could be 
adapted to support attack against the United States from the 
sea, including EMP attacks.
    A nuclear weapon detonated at altitudes above a few dozen 
kilometers above the earth's surface would generate a set of 
electromagnetic pulses of different types as its various 
outputs interact with the earth's atmosphere and the earth's 
magnetic field. These electromagnetic pulses propagate from the 
burst-point of the nuclear weapon to the line of sight on the 
earth's horizon, potentially covering a vast geographic region 
and doing so simultaneously, moreover, at the speed of light.
    For example, a nuclear weapon detonated at an altitude of 
400 kilometers over the central United States would cover with 
its primary electromagnetic pulse the entire continental United 
States and parts of Canada and Mexico. This is indicated on the 
view graph there, which a detonation at about 500 kilometers 
over Omaha blankets the entire United States and adjacent 
portions of Canada and Mexico with high-intensity EMP.
    Of course, regional EMP attacks can be comparably 
devastating to smaller portions of the country and that is 
indicated for one particular region, the American Southwest, on 
the view graph here, which a very low altitude burst, at only 
75 kilometers and very modest yield, could nonetheless destroy 
a portion of the United States accounting for almost a third of 
the gross demographic product.
    The immediate effects of EMP are disruption of and damage 
to electrical and electronic systems and infrastructures. EMP 
is not reported in the scientific literature to have direct 
effects on people.
    EMP and its effects were observed extensively during the 
U.S. and Soviet atmospheric test programs in 1962. During the 
United States' STARFISH nuclear detonation, which was not 
designed or intended as a generator of EMP, which occurred at 
an altitude of about 400 kilometers above Johnston Island in 
the Pacific Ocean, some electrical systems in the Hawaii 
Islands, 1,400 kilometers distant, were affected. This 
comparatively weak and distant, and indeed inadvertent, EMP 
caused the failure of street lighting systems, tripping of 
circuit breakers, triggering of burglar alarms, and damage to a 
telecommunications relay system, among other reported and 
reasonably well-documented effects.
    The Russians in their testing that year executed a series 
of high-altitude nuclear detonations above their test site in 
South Central Asia on Soviet territory. They report that they 
observed damage to both overhead and underground buried cables, 
some at distances of 600 kilometers from under the burst-point. 
They also observed surge arrestor burnout, spark-gap breakdown, 
blown fuses, and failures of power supplies of various types, 
both civilian and military.
    What is particularly significant about EMP is that a single 
high-altitude nuclear detonation can produce EMP effects that 
can potentially disrupt or damage electronic and electrical 
systems over much of the United States virtually simultaneously 
at a time determined by an adversary. Thus, the Commission 
found that EMP is one of a small number of threat types that 
has the potential to hold American society seriously at risk 
and that might also result in the defeat of our military 
forces.
    The electromagnetic field pulses produced by weapons 
designed and deployed with the intent to produce EMP have a 
high likelihood of damaging electrical power systems, 
electronics, and information systems upon which any reasonably 
advanced society, most specifically including our own, depend 
vitally. Their effects on systems and infrastructures dependent 
on electricity and electronics could be sufficiently ruinous as 
to qualify as catastrophic to the American nation.
    Depending on the specific characteristics of the EMP 
attack, unprecedented cascading failures of our major 
infrastructures could result, in which failure of one 
infrastructure could pull down others dependent upon its 
functioning, and the failure of these, in turn, could seriously 
impede recovery of the first infrastructure to fail. In such 
events, a regional or national recovery would be long and 
difficult and would seriously degrade the overall viability of 
the American nation and the safety and even the lives of very 
large numbers of U.S. citizens.
    The primary avenues for EMP imposition of catastrophic 
damage to the nation are through our electric power 
infrastructure and thence into our telecommunications, energy, 
and other key infrastructures. These, in turn, can seriously 
impact other vital aspects of our Nation's life, including the 
financial system, means of getting food, water, and health care 
to the citizenry, trade, and the production of goods and 
services.
    The recovery of any one of these key national 
infrastructures is dependent on others working. We have a very 
tightly integrated, high-efficiency, mutually interdependent 
set of national infrastructures. The longer the basic outage, 
the more problematic and uncertain the recovery of any of these 
infrastructures will be. It is possible, indeed, seemingly 
likely, for sufficiently severe functional outages to become 
mutually reinforcing until a point is reached at which the 
degradation of a set of infrastructures could have irreversible 
effects on the country's ability to support any large fraction 
of its present human population.
    EMP effects from high-altitude nuclear explosions are not 
new threats to our Nation. The Soviet Union in the past, and 
Russia and other nations today, as Dr. Pry has just masterfully 
summarized, are capable of creating these effects. 
Historically, this application of nuclear weaponry was mixed 
with a much larger proportion of nuclear explosives that was 
the primary source of destruction, and thus, EMP as a weapons 
effect was not a primary focus of U.S. defensive preparations. 
Throughout the Cold War, the United States did not try to 
protect its civilian infrastructure against either the physical 
or an EMP effect of nuclear weapons and instead depended on 
deterrence for whatever safety might be attained.
    What is different now is that some potential sources of EMP 
threats are difficult to deter. They can be terrorist groups 
that have no state identity, have only one or a few weapons, 
and are motivated to attack the United States without regard 
for their own safety or in the belief that they are effectively 
undeterrable by the United States. Rogue states, such as North 
Korea and Iran, may be developing the capability to pose an EMP 
threat to the United States and may also be unpredictable and 
difficult to deter.
    Single detonations of certain types of relatively low-yield 
nuclear weapons can be employed to generate potentially 
catastrophic EMP effects over wide geographic areas, and 
designs for variants of such weapons may have been illicitly 
trafficked for a quarter century. I refer specifically here to 
what Dr. Pry labeled as super-EMP.
    China and Russia have considered limited nuclear attack 
options that, unlike their Cold War plans, employ EMP as the 
primary or sole means of attack, as indeed Dr. Pry noted. As 
recently as May 1999, during the NATO bombing of former 
Yugoslavia, former high-ranking members of the Russian Duma, 
meeting with a U.S. Congressional delegation to discuss the 
ongoing Balkans conflict, raised the specter of a Russian EMP 
attack that would paralyze the United States. Open source 
Chinese military writings have described, in the event of a 
conflict over Taiwan, using EMP as a means of deterring or 
defeating the United States, all as Dr. Pry has raised before 
you.
    The key difference, the Commission found, from the past is 
that the United States has developed more than most other 
nations as a modern society. It is heavily dependent on 
electronics, telecommunications, energy, information networks, 
and a rich set of financial and transportation systems that 
critically leverage modern technology. This asymmetry, already 
large and growing even larger, is a source of substantial 
economic, industrial, and societal advantages, but it creates 
vulnerabilities and critical interdependencies that are 
potentially catastrophic to the United States.
    Therefore, terrorists or state actors that possess 
relatively unsophisticated missile armed with nuclear weapons 
may well calculate that, instead of destroying a city or a 
military base, they may obtain the greatest political-military 
utility from one or a few such weapons by using them, or by 
threatening their use, in an EMP attack. The current 
vulnerability of critical U.S. infrastructures can both invite 
and reward such attacks, if not corrected. As Secretary of 
Defense Don Rumsfeld has said, vulnerability invites attack, to 
which I might add that extreme sustained vulnerability entices 
such attack.
    However, correction is feasible and well within the 
nation's technical means and material resources to accomplish. 
Most critical infrastructure system vulnerabilities can be 
reduced below those levels that potentially invite attempts to 
create a national catastrophe. By protecting key elements in 
each critical infrastructure and by preparing to recover 
essential services, the prospects for a terrorist or rogue 
state being able to impose large-scale long-term damage on the 
United States can be minimized. This can be accomplished 
reasonably and expeditiously.
    Such preparation and protection can be achieved over the 
next several years given a well-focused commitment by the 
Federal Government and readily affordable levels of resources. 
We need to take actions and allocate resources to decrease the 
likelihood that catastrophic consequences from an EMP attack 
will occur, to reduce our current serious levels of 
vulnerability to acceptable levels and thereby reduce 
incentives to attack, and to remain a viable modern society, 
even if an EMP attack occurs. Since this is a matter of 
national security, the Commission felt strongly that the 
Federal Government must shoulder the responsibility of managing 
the most serious infrastructure vulnerabilities, including 
resourcing the timely obviation of these vulnerabilities.
    Homeland Security Presidential Directives 7 and 8 lay the 
authoritative basis for the Federal Government to act 
vigorously and coherently to mitigate many of the risks to the 
nation from terrorist attack. The effects of EMP on our major 
national civilian infrastructures lie within these directives, 
and the directives specify adequate responsibilities and 
provide sufficient authorities to deal with civilian sector 
consequences of an EMP attack.
    In particular, the Department of Homeland Security has been 
established, led by a Secretary with the authority, 
responsibility, and the obligation to request needed resources 
for the mission of protecting the U.S. and recovering from the 
impacts of the most serious threats. This official must assure 
that plans, resources, and implementing structures are in place 
to accomplish these objectives, specifically with respect to 
the EMP threat. In doing so, the Department of Homeland 
Security must work in conjunction with other governmental 
institutions and with experts in the private sector to 
efficiently accomplish this mission. It is important that 
metrics for assessing improvements in prevention, protection, 
and recovery be put in place and then evaluated, and that 
progress be reported regularly and independently reviewed.
    Specific recommendations are provided in the EMP 
Commission's report with respect to both the particulars for 
securing each of the most critical national infrastructures 
against EMP threats and the governing principles for addressing 
these issues of national survival and recovery in the aftermath 
of an EMP attack. Much of the problem can be addressed very 
economically without major capital investments, but by 
developing effective plans to meet the challenges posed by EMP 
threats.
    For example, one major Commission finding is that the 
electric power grid is the keystone infrastructure upon which 
all other infrastructures vitally depend. Yet today, there is 
no plan for black-starting the national power grid in the event 
of a continent-wide collapse of the system. If the electric 
power grid can be quickly recovered, the other infrastructures 
can be recovered adequately in the aftermath of an EMP attack. 
Conversely, if it cannot be quickly recovered, most, if not 
all, of the other infrastructures will not only collapse, but 
they will be exceedingly difficult to ever bring back.
    Making the key aspects of the nation's infrastructure more 
robust against EMP attack ill also pay dividends by protecting 
against other types of large-scale problems with them, such as 
natural disasters.
    This concludes my statement, Mr. Chairman. I invite your 
attention and that of your colleagues to the fact that several 
critical findings and recommendations of the Commission can be 
conveyed properly only in closed session. Again, my colleagues 
and I thank you for the opportunity to report the findings and 
recommendations of the EMP Commission to the United States 
Senate.
    Chairman Kyl. Thank you very much, Dr. Wood and other 
members of the Commission.
    [The prepared statement of Mr. Wood appears as a submission 
for the record.]
    Chairman Kyl. I am going to quote just three sentences from 
your testimony, especially for those in the media. I think if 
you are looking for a take-away, here it is. ``The bottom line 
is that several classes of potential adversaries, including 
terrorist groupings, have or can acquire the capability to 
attack the United States with a high-altitude nuclear weapon 
generated electromagnetic pulse. A determined adversary can 
achieve an EMP attack capability without having a high level of 
either military or nuclear sophistication. The effects on the 
systems and infrastructures dependent on electricity and 
electronics could be sufficiently ruinous as to qualify as 
catastrophic to the nation.''
    I guess the final point would be that you indicate that 
there are recommendations the Commission has made which, if 
implemented, could ameliorate the effects of this, and I want 
to get into that. But those three sentences, I think, 
illustrate the reason why it is important not to succumb to a 
failure of imagination again and for this Subcommittee to 
continue in its effort to identify potential kinds of terrorist 
threats that we need to look at.
    What I would like to ask in my series of questions, and any 
of the three of you should feel free to jump in here, it seems 
to me that for an amateur, we need to look at it this way. 
First, what exactly would an EMP attack do? Why might 
terrorists use EMP, and how would they do it? And what could we 
do about it? Those are kind of the three key questions.
    First of all, and I will probably start with--well, all 
three of you actually can discuss this, although I am not sure, 
Dr. Fonash, whether you want to get beyond the 
telecommunications area. If you do, feel free.
    Mr. Fonash. Sir, I would like to restrict my comments to 
predominately telecommunications--
    Chairman Kyl. Okay.
    Mr. Fonash.--and not discuss threat at all, and some of 
your questions address threat and that is more appropriate for 
DOD or CIA to address those questions.
    Chairman Kyl. Right. Well, I will just ask you to jump in 
then when you want to, if you would.
    But with respect to what an EMP attack would do, my own 
amateur view is that it would just fry all the electronic 
circuits and everything we have and I can't imagine hardly 
anything in our society that isn't controlled by some kind of a 
pump or a computer or communication of some kind or other. 
Would one of you be just a little bit more specific about--just 
paint a scenario of what would happen when this nuclear device 
exploded in the atmosphere, generates these pulses that come 
down on earth, as you have it right there over my home town of 
Phoenix, Arizona.
    Mr. Wood. Mr. Chairman--
    Chairman Kyl. And, excuse me, just bearing in mind that we 
have a nuclear generating plant there, we have Hoover Dam right 
outside, between Phoenix and Las Vegas there, as well as a 
whole lot of other kind of facilities that I am sure you can 
imagine.
    Mr. Wood. Mr. Chairman, the first thing that needs to be 
made clear is there has never been a large-scale EMP attack on 
any site anywhere, ever. So there necessarily is a large 
component of extrapolation from the measurements that have been 
made from the high-altitude nuclear tests. And those measured 
features have been taken into quasi-laboratory environments and 
there, various types of equipment, both military and, under the 
auspices of the Commission, a great deal of civilian equipment 
has been subjected to the measured circumstances that are 
created by a high-altitude nuclear detonation.
    Then another large measure of extrapolation is made from 
the damage to functionality and the physical damage that is 
seen to be imposed in those laboratory circumstances to what 
would happen if those circumstances were applied all over a 
country or over a large region.
    So there are two major aspects of extrapolation between 
measurements that were made primarily in the early 1960's and 
what we believe would happen if an EMP attack was imposed on a 
country or a large region thereof. So those are very important 
qualifications, and that is why there can be some ground for 
discussion between technical experts on precisely what the 
circumstances would be, two large sections of extrapolation.
    The Commission's findings, after listening to all of the 
experts, sponsoring a great deal of work on its own, which had 
never been done for the civilian infrastructure previously, was 
that the effects can be anywhere from highly transient, highly 
localized geographically, and a mere annoyance of the scale of 
a large electric power blackout. That is on the low end. On the 
high end, the consequences would be loss of major national 
infrastructures over the entire continent for an indefinitely 
great period.
    Where things fall in the spectrum in between these two 
extremes depends critically on the nature of the explosion, the 
place at which it is conducted geographically, the altitude at 
which it is conducted, the type of explosive which is used, 
which was determined by the Commission both on its own and with 
substantial foreign inputs to be an exceedingly critical 
parameter, and finally, on the degree of preparation that is 
taken against the consequences of such an attack.
    So this is an area which, to use technical jargon, the 
parameter space is kind of as big as all outdoors. It goes all 
the way from, as I said, the consequences of a blackout, which 
might have economic, as we saw a couple of years ago, might 
have economic scales of $20 billion, in round numbers, and 
essentially no loss of life, just a great deal of 
inconvenience, to something which would literally destroy the 
American nation and might cause the deaths of 90 percent of its 
people and would set us back a century or more in time as far 
as our ability to function as a society.
    Chairman Kyl. Now, with respect to that latter kind of a 
threat, a lot of things would have to be coincident. You would 
have to have a dramatic set of circumstances, the right kind of 
weapon, the right altitude, and all of the other factors. But 
take that most serious case, or something somewhat less than 
that, and describe specifically the kinds of things that would 
physically occur. What physically occurs to the infrastructure 
of Phoenix, Arizona, in that event, or the State?
    Mr. Wood. What happens is that a nuclear explosion is 
caused to occur at a significant altitude, a few dozen to a few 
hundred kilometers, by any means that can be arranged for. One 
of the means that might concern us very much at the present 
time is a Taepo Dong-2 missile carrying an advanced nuclear 
warhead from North Korea.
    One of the striking things that you heard today from Dr. 
Pry, which has not been tabled previously in public, is that 
North Korea should not be considered as just potentially 
possessing first generation nuclear weapons, but potentially 
the most advanced nuclear weapons that exist on the planet 
because they have received a great deal of foreign assistance.
    So when we stop to think about being attacked from North 
Korea, we shouldn't think about Hiroshima or Nagasaki. We 
should think about flavors of destruction that have never been 
seen before on this planet.
    Chairman Kyl. Well, taking--
    Mr. Wood. So when that--
    Chairman Kyl.--taking that kind of weapon, what physical--
    Mr. Wood. When that type of weapon is exploded at several 
dozen to a few hundred kilometers above the United States, if 
it happened in the middle of the day, you might see or hear 
nothing. The lights would go out. A great deal of things 
instantly dependent on electricity would go away. And depending 
on the nature of the damage, its severity, its geographical 
descent, the lights might come back on hours later, they might 
come back on decades later.
    If they come back on in hours, as we know from blackouts, 
there is just a great deal of inconvenience and substantial 
economic loss. If the lights stay off for more than a year in 
this country, the Commission's estimate was the loss of life 
would run into the tens of millions, perhaps a great deal more. 
You miss the harvest. You have no refrigeration, no 
transportation, no anything except what we had as a country in 
the 1880's. Most Americans will die in that interval.
    Chairman Kyl. Well, how much of our country, and maybe I 
can ask Dr. Pry to answer this, how much of our country depends 
upon some kind of electrical system working?
    Mr. Pry. Our entire country depends on some type of 
electrical system working. If I could add to what Dr. Wood has 
said about what the effects would be, what it might be like, 
one should think about the kinds of blackouts that happened in 
the aftermath of hurricanes, for example. In addition to the 
other data that he talked about, the Commission also sponsored 
studies that took a look at the consequences of major blackouts 
that were induced by storms--ice storms, hurricanes, that sort 
of thing.
    We tend to think of those as fairly commonplace because 
they tend to be isolated geographically and there is something 
called the edge effect, because they will effect--for example, 
Hurricane Andrew affected eight counties in Central Florida, 
and so we had the entire rest of the country was unaffected and 
we were able to come in and recover from that very quickly.
    But if you look at what happened in those eight counties, 
there was no food. There was no water. There was no 
communications. People couldn't even communicate to find where 
they could go to get food and water. There were rippling 
societal consequences where there was basically a breakdown of 
law and order and it became a chaotic situation where the 
National Guard had to be sent in to--
    Chairman Kyl. You said they couldn't communicate. What 
would happen with the electromagnetic pulse that would prevent 
communication?
    Mr. Pry. Well, it would knock out--first, it knocks out the 
power grid, so there is no electricity to run televisions, for 
instance. Most people don't have battery-powered radios 
anymore. Most of the radios that are around depend on 
electricity. Everything depends on electricity.
    Transportation was paralyzed in that area because the 
traffic lights couldn't work.
    Chairman Kyl. Could you pump gasoline?
    Mr. Pry. You couldn't pump gasoline. You basically had only 
as much as gasoline as was available in the tank of your car. 
This happened during the August blackout in New York, as well. 
You saw these same infrastructure failures passing off, flowing 
from the failure of the electric power grid, collapsing like 
dominoes, each of the infrastructures, including the 
telecommunications infrastructure. It didn't become a 
catastrophe because of the edge effect, because we were able to 
move in there, and also because it was just the power grid that 
was down, in the case of New York, and so fairly easily 
repairable. It could be repaired in a week or two.
    But if you extrapolate something like that happening for 
months or years, you are obviously talking about a life-
threatening kind of a catastrophe because you cannot endure, or 
you cannot support the population without food, without water 
for those protracted periods of time, nor can one count on 
societal stability for protracted periods of time. I think the 
Andrew experience in those eight counties, what happened there 
in terms of social cohesion is instructive in terms of what 
could happen on a national basis if such a disaster were to 
occur.
    And you don't need the--and I completely concur with Dr. 
Wood about the range of uncertainty that exists in these 
things, but we ought not to take--he was talking about the 
super-EMP. The thing is, we don't know how low down you can go 
with that threat. It might well be that in order to achieve 
these things, it may be possible that even without a super, 
with a first generation weapon, you might be able to do it.
    And the reason for this is the keystone infrastructure is 
the electric power grid. When that collapses, the rest of the 
infrastructures are going to collapse, as well. And the 
electric power grid, as we learned from New York, is always 
operating on the edge of failure. It is old. It has not been 
modernized and updated. In Commission work, there are cases 
where a falling tree branch has caused a multi-State blackout 
that has lasted a week.
    Chairman Kyl. Let me--
    Mr. Pry. If a falling tree branch can do that, a first 
generation atomic weapon, I hate to think what that could do.
    Chairman Kyl. And I want to get to the kind of weapon that 
might be used and how a terrorist group might want to do that. 
Let me just ask one last question. In Phoenix during the hot 
part of August, there was a fire at a switching station for one 
of the utilities and two transformers were burned. We were on 
the edge of a catastrophic failure in Phoenix because of that 
because the only place where the transformers could be 
purchased, I believe, was someplace in Italy. It took a long 
time to get them there and they had to be transported by a very 
large, special kind of truck. Thankfully, we had enough 
generation and transformer capacity to just barely work out of 
the problem. But would a nuclear weapon cause damage to things 
like switching facilities, transformers, as well as other kinds 
of circuitry?
    Mr. Wood. Mr. Chairman, I think the situation that you just 
described is existing in most, if not every, city across the 
country. If the United States was subjected to a continental-
scale EMP attack, you would see damage of the type that you 
describe, but of a much more serious character, to all of the 
major transformers at once that are connected and that are 
postured so that they would see not the instantaneous 
component, but the slow or several-minute duration component.
    This is not hypothesis. This is the type of damage which is 
seen to transformers in the core of geomagnetic storms. The 
geomagnetic storm, in turn, is a very tepid, weak flavor of the 
so-called slow component of EMP.
    So when those transformers are subjected to the slow 
component of the EMP, they basically burn, not due to the EMP 
itself but due to the interaction of the EMP and normal power 
system operation. Transformers burn, and when they burn, sir, 
they go and they are not repairable, and they get replaced, as 
you very aptly pointed out, from only foreign sources. The 
United States, as part of its comparative advantage, no longer 
makes big power transformers anywhere at all. They are all 
sourced from abroad.
    And when you want a new one, you order it and it is 
delivered--it is, first of all, manufactured. They don't 
stockpile them. There is no inventory. It is manufactured, it 
is shipped, and then it is delivered by very complex and 
tedious means within the U.S. because they are very large and 
very massive objects. They come in slowly and painfully. 
Typical sort of delays from the time that you order until the 
time that you have a transformer in service are one to 2 years, 
and that is with everything working great.
    If the United States was already out of power and it 
suddenly needed a few hundred new transformers because of 
burnout, you could understand why we found not that it would 
take a year or two to recover, it might take decades, because 
you burn down the national plant, you have no way of fixing it 
and really no way of reconstituting it other than waiting for 
slow-moving foreign manufacturers to very slowly reconstitute 
an entire continent's worth of burned down power plant.
    Chairman Kyl. Let me now switch to a different inquiry. 
Terrorists are very clever, but sometimes it seems to me they 
are more interested in something really showy than something 
that might be even more damaging. I am presuming something that 
I don't know here, and a smart terrorist just might figure that 
this is exactly the thing that he wants to try to achieve. But 
I always thought that if there were access to a nuclear weapon, 
that the biggest bang would be to blow up a whole lot of 
Americans in a city, cause the collateral damage, but primarily 
the immediate loss of lives.
    So the first question that came to my mind is, while I 
could understand in war or preparation for war a power, and 
just to use a hypothetical case like China, for example, or 
North Korea, might want to freeze our capabilities with an EMP 
kind of attack, would a terrorist necessarily turn to that as 
the first choice? And then, of course, the response comes in, 
well, maybe that is not a matter of choice, but it is a matter 
of convenience. What were the scenarios that the Commission 
looked at that led it to conclude that this might well be 
doable and something that a terrorist would actually decide was 
the best thing to do or the only thing that could be done?
    Mr. Wood. Mr. Chairman, the Commission proceeded not on a 
scenario-driven fashion but on a capabilities-based manner, and 
so we looked at the capabilities that would have to be brought 
into existence by an attacker to impose various levels of 
damage and we tried to steer fairly clear of sketching ways, 
particular ways in which particular people might choose to do 
this because, frankly, thinking like a terrorist or thinking 
like a rogue state leader or whatever is well outside the 
competencies that the individual Commissions brought. None of 
us have been terrorists and very few of us have led rogue 
states, and so we merely looked at the capabilities that could 
enable such behaviors.
    Chairman Kyl. Not inviting a comment about Berkeley there.
    [Laughter.]
    Mr. Wood. So the inflow bottom line, or line that we drew 
across the bottom of our considerations is that we wouldn't 
look or worry about capabilities that didn't impose at least 
$100 billion worth of damage on the United States in a stroke 
and went on up from there.
    The damage to the infrastructures that we contemplated went 
on up into $10 trillion scales--trillion dollar--that is to 
say, a large fraction of the total capital value, capital plant 
value of the United States as a nation. The thing which is 
impressive to us is that nuclear explosives and ballistic 
missiles to carry them up to altitude costing of the order of a 
million dollars could potential impose $10 trillion worth of 
damage. That is to say, ratchet it up by something of the order 
of a factor of $10 million-fold. That was extraordinarily high 
leverage.
    Now, terrorists might be very much inclined towards 
attacking iconic targets, but if it is a semi-rational 
terrorist, he probably looks for leverage and one of the types 
of leverage that is probably most impressive is dollar 
leverage. How much can I destroy per what I invested? Osama bin 
Laden boasted of how little he spent on the attack on the Twin 
Towers and how much damage was imposed and so forth. So at 
least some senior terrorists think in those terms, think in 
terms of return on investment, if you will, and/or at least 
their financial backers think in those terms, and so it didn't 
seem totally inappropriate to look at, well, what could be done 
with a single or a very small number of weapons that could be 
purchased or otherwise obtained for very reasonable values on 
the world market?
    There is roughly 35,000 Scud ballistic missiles, for 
instance, in existence at the present time. As I said, they 
sell for a small fraction of a million dollars apiece, and 
private collectors in the continental United States have taken 
delivery as private individuals on Scud missiles in their homes 
that were in operational condition. So these things are easy to 
come by. Probably the most challenging thing from a terrorist's 
standpoint is getting either an ordinary nuclear weapon for an 
ordinary EMP or an advanced one for super-EMP and getting 
somebody to launch it from Canada, Mexico, tramp freighters off 
the coast, any of many places where an attack of at least a 
regional character, if not a national character, could be 
pressed against the United States.
    Chairman Kyl. I realize that you all are very scientific 
and precise in your approach to these problems, and you caveat 
your conclusions very carefully, that you are not into scenario 
analysis. But with respect to the average person thinking about 
how, not how likely it would be, but at least whether there is 
some remote possibility that this could occur and, therefore, 
it would be something that we would want to put assets against 
to try to protect against it or to deal with it if it occurred, 
there has to be some element of probability involved.
    And so one gets into questions of how easy it would be, for 
example, for a terrorist organization, as opposed to a state, 
to launch a guided missile against a specific target in the 
United States with a nuclear warhead on it and whether that 
would be just as easy to do as detonating something in the air 
that would cause this kind of damage.
    You pointed out that the range of missile available to a 
terrorist would not be an ICBM today, presumably, but would be 
a shorter-range missile so that it would have to be launched 
from something off our coast or in an adjacent area. But as you 
note in testimony and as Dr. Pry noted, that could come from a 
seaborne vessel from which Scud-type missiles have been 
successfully launched, is that correct?
    Mr. Wood. Indeed, the Secretary of Defense has pointed out 
twice in the last year and a half that at any given time, any 
of a couple of dozen vessels off the coast of the United States 
count mount such an attack, and those have been, as I pointed 
out, kind of off-the-cuff statement in news conferences as, 
hey, everybody understands and knows that.
    Chairman Kyl. Yes.
    Mr. Pry. If I could add to what Dr. Wood has said, al Qaeda 
is known to own 80 freighters. I think that is the estimate. 
They are supposed to own 80 freighters. The Scuds, some models, 
the Scud-1 can be purchased for $50,000. So that is well within 
their capability. The hard part is the nuclear weapon.
    If you had a Scud and a freighter, would you attack a city 
to kill people versus doing the EMP? Well, one problem you have 
with that mode of attack for going against the city is that it 
is so inaccurate that the likelihood is, well, you are running 
a great risk that you might not hit the city at all. That isn't 
a problem with the EMP because the area of effect is so great 
that all you have to do is just get it up to the proper 
altitude. So that technical consideration might well tend to--
    Chairman Kyl. This is a very important point that I would 
like to just have us dwell on for just a moment, because it 
does help to answer the question of why potentially an EMP 
attack. I mean, one answer is you are very rational and you 
know how to leverage money and to get the most bang for the 
buck, Dr. Wood's testimony earlier. The second reason would be 
that it might be very difficult to launch a missile with the 
kind of guidance available for a Scud missile, for example, to 
actually hit your target in the United States if you were doing 
this from a barge or a freighter offshore, is that correct?
    Mr. Pry. Oh, yes, and there is additional considerations. 
You know, a missile that is going to go to ground, to actually 
hit a city, is going to be more vulnerable to missile defenses 
than an EMP. An EMP only has to complete half its trajectory, 
and doing it the other way, to go after a city, has to complete 
its full trajectory, and at the end of the trajectory is 
exactly when you are going to be most vulnerable to missile 
defenses.
    And look at what are you trying to accomplish? Suppose you 
had a first generation weapon. Suppose you, instead of using a 
missile, suppose you had a suitcase-type thing or you wanted to 
send it into New York Harbor or something like that. Well, with 
a 20-kiloton weapon, you are not going to destroy the City of 
New York. You will kill a couple of hundred thousand people and 
then pray that the United States doesn't find out who your 
state sponsor was, because then we would turn that state 
sponsor into a plate of glass. With EMP, you at least have a 
possibility of actually killing millions of people, millions of 
people, and getting a much bigger bang for the buck.
    Moreover, whereas the attack on a city could backfire in 
the sense of instead of breaking the will of the American 
people in the war on terrorism, it could just further enrage us 
and steal our resolve to project our military forces and use 
our strength to prosecute that war, when you think of, well, 
how could the terrorists possibly win the war on terrorism, 
this is one of the few options that is available for them to 
actually win the war on terrorism. If they could destroy the 
United States as a superpower by disrupting our 
infrastructures, they would win the war on terrorism.
    Perhaps this is why Iran is doing the kinds of tests it is 
doing with those Shahab-3s that have been burst at high 
altitude. We have described them as test failures. They have 
described them as successes, as I alluded to in the testimony. 
And why do that test off of a freighter?
    And we also know from al Qaeda that Osama bin Laden, one of 
the reasons he attacked the World Trade Centers was financial. 
They were hoping to disrupt our economy. That was one of their 
goals. It isn't just to kill people, it is to do as much damage 
as they can to us, including economically and financially.
    Mr. Wood. Returning to your core thrust just briefly, Mr. 
Chairman, the basic thing that should intrigue an attacker, a 
rational attacker, about mounting an EMP attack is, as Dr. 
Price said, you only have to do half of the normal ballistic 
missile mission. Two things that are crucial that were cited by 
implication that deserve to be emphasized is that you only have 
to throw the payload up. That is the essence of the thing. You 
aren't concerned at all with precision targeting, and very 
importantly, when you come down, you have to face the so-called 
atmospheric reentry problem, which can be quite challenging, 
particularly for a longer-range, higher-speed missile.
    EMP attacks don't have to cope with that at all, so they 
throw away at once the requirement to cope with missile 
defenses, that is terminal phase missile defenses. They don't 
have to have good guidance. They don't have to have reentry 
systems. They literally can be a Fourth of July-type rocket 
with a nuclear explosive on the front. And so that is a set of 
enabling things which make an attack much, much easier to 
launch.
    And then when you start looking for telltale features and 
so forth, this combination of launching off a barge in the 
Caspian, what in the world motivation does the Iranian 
government have for launching off a barge against Israel, 
against Iraq, against any of its traditional local enemies? 
Launch off a barge? It makes no sense at all. What sense does 
it make to have your test detonate its payload at high altitude 
in mid-course? No sense whatsoever, and yet they do this. So 
you either say they are crazy, which is the lazy way out, or 
you say, what in the world are they intending to actually do?
    Chairman Kyl. So before we get to how do we fix this 
problem, then, we have got sort of the means and the motive 
pretty well established as well as a huge amount of damage 
should such an attack occur. We, therefore, get to the question 
of what can we do about it and there has been work done on this 
both in terms of the Department, as Dr. Fonash discussed, as 
well as the recommendations that the Commission made in its 
report.
    Perhaps we could spend just a little bit of time on that, 
because we don't want to leave people too afraid that we are 
going to wake up tomorrow morning with a huge problem on our 
hands here. What are we doing about it? What can we do about 
it?
    Mr. Wood. I would just like to, before we leave the first 
section, Mr. Chairman, to comment that the Commission's report 
to the Congress is in three basic segments. One is the 
Executive Summary and the main body of the report, all of which 
are unclassified or in the late stages of being formally 
declared to be unclassified. We hope to see that out entirely 
very soon past the executive branch reviews.
    The second main piece is concerned with military matters, 
which the Commission was charged with looking at military 
vulnerabilities, as well. That report is classified secret and 
is available through appropriate channels at the present time.
    The third one, which is classified top secret with special 
caveating and labels and so forth that would typically go with 
intelligence matters, addresses specifically the points that 
you referred to, from whence is the attack coming and when and 
how soon and with what likelihoods and why would people be 
motivated to be doing it and what are they actually doing. That 
is very highly classified and that report and its findings and 
recommendations obviously can be addressed only in closed 
session. That is what I referred to in my opening statement. 
But there is a great deal of information that was examined by 
the Commission and assessed and findings and recommendations 
based on it in that final relatively small portion of the 
report, which necessarily is discussed only in very cloistered 
circumstances. But it is discussed.
    Chairman Kyl. Dr. Pry, would you like to perhaps first 
address the problem, the recommendations of the Commission?
    Mr. Pry. Yes. Ultimately, this is really a good news story. 
Despite the catastrophic nature of the threat, I think one of 
the breakthroughs the Commission really did--made--it came up 
with, in a sense, a blueprint that, if followed, in three to 5 
years, at affordable, modest cost could mitigate, so mitigate 
the effects of the EMP threat that we could take it out of the 
catastrophic category and recover from this particular threat. 
That is a huge accomplishment.
    You can't say that about the other handful of threats that 
could destroy us as a society, like genetically engineered 
smallpox, for example. Things like that are still such a 
formidable problem, most people are still trying to get their 
arms around how to solve it. But this one is doable.
    Much of it involves common sense. For example, those 
transformers Dr. Wood referred to, instead of having the 
ability to replace only 1 percent of the transformers in this 
country, which is about what we have got now, maybe we should 
have about 150 of these transformers purchased in advance, 
stored on-site in metal sheds that are welded in such a way 
that they become cages so that they would be protected from the 
effects of EMP, disconnected from the power grid. Then you 
could quickly replace those transformers, and as we found from 
our analysis, once you get that power grid up, you can bring 
back all the other infrastructures fairly expeditiously. That 
wouldn't cost that much. That could be accomplished in three to 
5 years.
    There are other things that don't involve buying anything, 
but it is just a case of thinking about it and planning. Take 
diesel-electric locomotives, for example. There are tens of 
thousands of them in this country. Each diesel-electric 
locomotive, they can generate about a megawatt of electricity. 
In Canada, for years, they have been using them during the 
winter to power villages and small towns. That is how much 
electricity you get out of one of these things.
    We are taking the wheels off and sending them to Iraq, 
American diesel-electric locomotives, to supplement the 
destroyed electric infrastructure over in Iraq. Maybe we need a 
plan in the aftermath of an attack like this, or a cyber 
terrorist attack or something else that would interfere with 
our power grid, to take advantage of the tens of thousands of 
diesel-electric locomotives. Where do we drive them to? What 
are the highest priority things?
    I would suggest maybe we need to drive them to those 
regional food warehouses, the larder of the United States. 
There are maybe a couple of hundred regional food warehouses in 
which a 60-day supply of food, you know, supplies all of the 
States. In the supermarket, you have only got about a day or 
two worth of food. Where the food comes from, it is transported 
by truck from these regional storehouses which critically 
depend on refrigeration and temperature control, so the food 
will spoil very quickly. Maybe we need to get diesel-electric 
locomotives to each of these things to keep them powered up, 
and to hospitals and to other critical nodes in communications 
and in the power infrastructure so that we can most 
expeditiously bring things back in that aftermath.
    The Commission found another example. There is a particular 
fuse that is just by accident of its design that is much less 
susceptible than the fuses that are currently used in traffic 
signals, to control traffic lights and other kinds of traffic 
regulation. This fuse costs, like, one penny more than the fuse 
that is currently used, but is much harder to the effect.
    So these are just some examples of things that would go 
very inexpensively a long way toward mitigating the problem. I 
would underscore most of all, though, the big transformers and 
the fact that I don't think we can afford to be dependent on a 
foreign country, not have reserve transformers in this country 
to bring back our power grid.
    Chairman Kyl. We will talk about communications in just a 
second, but I can think of so many other problems that could 
arise. In order to pump water, you have to have electricity.
    Mr. Pry. Yes.
    Chairman Kyl. You could get into a fire situation or other 
situations in which you could have a conflagration that you 
couldn't deal with because you couldn't get water on it or 
other kind of fire retardant, for example.
    Mr. Wood. Indeed, the Commission found that just exactly 
that problem was likely to be an exceedingly serious one, sir, 
in the immediate aftermath of an EMP attack, that the fires, 
once started, would spread completely out of control and 
without human intervention, effective human intervention, 
something for a lack of ability to source water onto those 
fires, create fire breaks, and so forth. So that is the sort of 
immediate aftermath.
    If a terrorist wanted to have something iconic happen as a 
result of an EMP attack, it would be that in a matter of hours 
after a very large-scale attack, America's cities would be in 
flames and they would burn until they burned down. And in the 
following few days, as people were unable to get food in 
markets and so forth, four million Americans under the age of 1 
year of age would die of starvation because there wasn't infant 
formula and the other specialty items that people are used to 
always finding in stores, so they need them. Young children are 
very fragile and we would lose four million infants under the 
age of one in the first two weeks, most all of them, and so 
forth.
    So the damage would be pretty dramatic. Nobody gets killed 
right away, but in the immediate aftermath, America in a lot of 
senses would be hammered to its knees unless, and this is a 
crucial--excuse me, sir--unless, as Dr. Pry pointed out, and 
this was a key finding of the Commission, the attacks were 
regional and the edge effects could be martialed very, very 
swiftly and effectively so that the rest of America came to the 
rescue of the portion that had been brought under.
    Chairman Kyl. But for that, we have to start with a plan.
    Mr. Wood. Of course. We have to not only have the plan, but 
we have to have the things to enable the plan very quickly.
    Chairman Kyl. Right. Now, do any of you know whether the 
recommendations of the Commission have been dealt with in any 
specific way by the Department of Homeland Security? Leave out 
Department of Defense, because that is really a different 
issue.
    Mr. Fonash. Let me answer that in two ways. First of all, 
let me talk to you about telecommunications and then let me 
talk about DHS infrastructure protection in general.
    Chairman Kyl. Thanks.
    Mr. Fonash. With regards to telecommunications, we have 
participated, the Commission, we actually testified in front of 
the Commission. As I said before, for over 20 years, we have 
been testing equipment against EMP and other electromagnetic 
effects. So we are very well aware of the Commission's 
recommendations. We have implemented many of those 
recommendations. And we also continue our testing program. We 
remain vigilant in communications against the EMP threat or any 
other type of EMP or electromagnetic effect against 
telecommunications.
    Telecommunications basically is the--the telecommunications 
infrastructure we have today is relatively impervious to EMP. 
It would be disrupted, but then it will be restored. It can be 
restored.
    There is a dependency of our telecommunications 
infrastructure on power, but that is an dependency that we are 
aware of and we are working at. And during a blackout, going to 
the New York blackout, communications functioned well. The 
basic communications worked through the blackout, and that is 
due to the fact that major communications centers have multiple 
sources of back-up power, one being that they have battery 
back-up, and then in addition to battery back-up, they have 
diesel generators.
    Now, of course, there is a dependency on the diesel 
generators on fuel, and so eventually, if you don't get the 
diesel generators refueled, there would be a problem. But 
during a blackout in New York, the telecommunications basically 
functioned.
    Now, with regards to the overall issue, is the Department 
of Homeland Security addressing this, since the creation of the 
Department of Homeland Security in 2003, we have been trying to 
protect our critical infrastructures, and what we have done is 
we have created the interim National Infrastructure Protection 
Plan consistent with Homeland Security Presidential Directive 
7, which directed us to develop a process to protect our 
critical infrastructures. And the interim National 
Infrastructure Protection Plan really lays out a framework, a 
risk management framework and a process for protecting the 17 
infrastructures of this country, and I speak for only one of 
17, but there are 17 infrastructures.
    DHS, in our role of the National Infrastructure Protection 
Plan, we provide leadership across the infrastructures. We 
coordinate across the infrastructures. We develop process and 
tools. And we are the sector leads in certain infrastructures, 
for example, telecommunications, but we also work in 
interdependencies. Interdependencies cross infrastructure. For 
example, interdependency of other infrastructures on power is 
an example.
    But we put in the process. We are identifying the assets. 
We want to assess those vulnerabilities of those assets. We are 
going to prioritize those assets in terms of the impact of any 
damage to those assets with those vulnerabilities, and then we 
will protect and we will establish metrics.
    And I want to say, so those are the things that we have put 
into place and we seek input in terms of vulnerabilities from 
all sources and we would certainly consider the Commission's 
report while we work with DOE, who is the sector lead for 
energy, as they develop their sector plan for how they plan on 
protecting the energy infrastructure.
    Chairman Kyl. Dr. Pry?
    Mr. Pry. I respectfully disagree with my colleague that the 
telecommunications infrastructure is as robust as is described 
against the EMP effect. This is a nether card, which is an 
example. It is ubiquitous. There are millions of these in the 
communications infrastructure. The Commission sponsored testing 
against a moderate level of EMP and it was damaged. The damage 
is indicated by the arrow that was indicated here. To have 
massive failure of this kind of an item would be a very serous 
blow to our communications infrastructure.
    The blackouts example that was referred to, the blackouts, 
of course, lasted only a short period of time, and while it is 
true that there are nodes in the communications infrastructure 
that have generators, one of the things I wanted to comment on 
when you raised the issue of fire is that we found it to be the 
trend that is happening in terms of the robustness of these 
generator facilities and battery facilities. It is actually 
going in the wrong direction. There is a tension between the--
in the fire codes, a concern about storing large quantities of 
flammable petroleum products to run these generators, and in 
many cases, in many cities, they are scaling back on the amount 
of petrol that is allowed to be stored for the generators. So 
the time that you can run these generators is getting less and 
less when really, the trend probably, if you take EMP seriously 
as a threat, ought to be going in the other direction to give 
you a more protracted capability to generate electricity.
    Mr. Wood. If I could interject there just very briefly, Mr. 
Chairman--
    Mr. Pry. The problem is not just simply fuel storage, which 
the Commission found was indeed an alarming trend, and that it 
is not only going in the wrong direction, but it is going in 
the wrong direction very rapidly in that not only are the 
allowed fuel depots becoming smaller, but even the permission 
to start and operate the emergency generator systems is being 
strongly circumscribed by air pollution considerations. You 
literally can't run these systems for more than very brief 
intervals without having a variance on your operating permit to 
allow you to go on for four hours or eight hours.
    Mr. Wood. There is very substantial concern that the 
apparent ability to backup electric power for the 
communications system is simply illusory and is becoming more 
so very swiftly. Excuse me. Go ahead.
    Mr. Pry. If I could continue, a third point is the super-
EMP weapon, okay. What are you robust and hardened against? The 
notion of this new technology is basically a discovery of the 
EMP Commission. It was a consequence of reviewing foreign 
military writings and actually meeting with foreign military 
officers that there is a technology out there which our own 
experts have looked at and consider highly plausible and that 
this might already have been weaponized.
    The threat, the wave form, both the strength of--the field 
strengths that you are talking about and the wave form are very 
different from those that we were thinking about during the 
Cold War. We can't really get into it in great detail here in 
this unclassified forum, but that is a new threat, and so how 
could one be confident that you are robust against that threat 
that we are only now just beginning to understand?
    And last, in terms of the familiarity, I suppose it is 
possible to be familiar with the Commission's recommendations, 
because I know some of our Commissioners have worked with--have 
talked to people from Homeland Security, but the fact of the 
matter is that Volume 3 of the Commission report, which is 
where the detail about our recommendations is, is not available 
to any agency or department yet. I mean, it is still going 
through the security classification review process and hasn't 
been issued yet.
    So I can see how one might know about some of the 
recommendations generically from the Executive Summary, and 
then perhaps gotten some detail from some of our Commissioners, 
but I have to be kind of skeptical about the idea that there is 
great familiarity with a report that has not yet been delivered 
to either the Department of Defense or the Department of 
Homeland Security.
    Chairman Kyl. Is there a specific process by which the 
Commission believes it can be in communication with the 
appropriate agencies, primarily DOE, DOD, and DHS, and a 
process, then, of review and action for planning would follow? 
Is there a fairly clear path there, or is that something 
probably that we should help to create and foster?
    Mr. Wood. Mr. Chairman, the Commission, as specified in the 
statute, is a creature of the Congress--
    Chairman Kyl. Right.
    Mr. Wood.--and it is an advisory body to the Congress. It 
had input from the executive branch primarily in the way the 
individual Commissioners were appointed by the Secretary of 
Defense, primarily, and also by the Director of FEMA, now a 
part of DHS. But the specification was--the mandate to the 
Commission was to assess, find, recommend, and report, and that 
is what we are doing, and to the extent that the Congress has 
in mind activities or responsibilities beyond that, they need 
to instruct us.
    Chairman Kyl. I think probably with your advice, and I will 
be in touch with you and will certainly be in touch with DHS, 
as well, probably try to put together a letter to all of the 
various heads of the departments concerned with a request that 
as soon as the--well, to transmit the reports as they currently 
are and make sure that as they are each completed, at the 
appropriate levels of classification, that they are transmitted 
and that a process for agency interaction and response be 
created with a report back to the Congress. If that hasn't been 
done by anyone else in the Congress, I will pursue that.
    Dr. Pry?
    Mr. Wood. Mr. Chairman, the basic issue there was that DHS, 
of course, did not exist when the Commission was mandated--
    Chairman Kyl. Right.
    Mr. Wood.--in Public Law 106-398, and so it was completely 
impossible to contemplate DHS being involved. So the 
Congressional rectification really updating of the arrangements 
is eminently appropriate there.
    We have briefed and we will continue to brief senior 
officers and officials of the Department of Defense in the 
portion of the Commission's mandate that was concerned with 
military systems, but frankly, the key thing that the 
Commission was to do with respect to vulnerability of civilian 
infrastructure is dangling at the present time as far as formal 
arrangements are concerned simply because DHS didn't exist at 
the time and the Director of FEMA no longer has the 
responsibilities that the legislation contemplated when the law 
was enacted.
    So the Congress taking the initiative to update the 
administrative arrangements would be eminently appropriate. It 
is one of the things that was a basic recommendation of the 
Commission.
    Mr. Pry. If I could add to what Dr. Wood has said, yes, 
because it does contrast with our relationship with the 
Department of Defense, where the Commission findings have been 
briefed all the way up to the Wolfowitz level, to the Navy 
Secretary. We haven't had equivalent briefings like that with 
the Department of Homeland Security. As Dr. Wood points out, 
Homeland Security didn't exist at the time the legislation was 
drafted, and so there was perhaps not the legislative 
obligation or opportunity to have the kind of cooperation that 
we had with the Department of Defense.
    The Department actually participated. I mean, DTRA, the 
Defense Threat Reduction Agency, we had staff from DTRA that 
actually participated in our work, was present at all of the 
deliberations. It wasn't a matter of one or two briefings here 
and there. They were actually deeply involved in the work of 
the Commission.
    We would hope that a similar relationship could evolve--
needs to evolve with the Department of Homeland Security 
because that is where the primary threat is these days, 
actually. It is not--there are serious matters in our military 
forces, too, but primarily, it is a homeland security issue.
    Another part of that problem, of course, is that after this 
Commission delivers its report to Congress, which is going to 
happen as a consequence of giving briefings like this, its 
legislative mandate goes away and so the Commission ceases to 
exist. Over on the House side, and we are hoping to convince 
people on the Senate side, as well, perhaps this is not a good 
thing to do at this juncture, that we need to extend the life 
of the Commission. We have a unique body of expertise here in 
this Commission and a blueprint that the Commission can help 
advise Congress on following and help advise the other 
departments and agencies of the government. We are in the 
process on the House side of reintroducing legislation to give 
it a more homeland security kind of direction so that the 
departments can work together in the same productive way that 
we have worked with the Department of Defense.
    Mr. Wood. The enabling legislation, sir, includes a mandate 
to the Secretary of Defense to deliver a report within a year 
of the Commission's report commenting on the Department of 
Defense's response and thinking and so on on the issues. Again, 
because of the lack of currency of the legislation, there is no 
corresponding mandate to the Secretary for Homeland Security.
    Mr. Pry. That is correct.
    Chairman Kyl. I appreciate all of that. I think this is a 
propitious time, then, to hold this hearing to not only remind 
ourselves of the potential for a threat here, but also to get 
straight what we can do with these recommendations as you 
conclude your work with the classified version and as you 
advise the Department of Defense and report back to Congress, 
as well, how we can also expand the reach of these 
recommendations to the Department of Homeland Security as well 
as anyone else like DOE that would need to be aware of them, 
too.
    If that requires a mandate to continue the Commission's 
work, it sounds to me like that would be a good idea. In any 
event, informally if not formally, we can certainly direct 
where the reports should go and set up some meetings so that we 
can continue to work on the fixes to the problem rather than 
just identifying the problem and leaving it dangle there.
    So unless there is anything else that you all would like to 
offer, let me just tell you that, on behalf of the Committee, 
what I will do is get together with my colleagues, draft up an 
approach to this issue, the existence of the Commission, the 
issuances of the reports, both classified and non-classified, 
the inclusion of the Department of Homeland Security in the 
process, and anything else that we think we need to do to 
follow up on these recommendations, and we will communicate 
with you all and then take whatever action we think is 
necessary here in the Congress, as well.
    Because of my time constraints, if not yours, I am going to 
terminate the hearing unless there is anything else that any of 
you would like to add. This has been most informative. We don't 
mean to scare everybody to death, but by the same token, the 
failure of imagination, 9/11 Commission report, and it doesn't 
take much imagination to figure out what could go wrong here. 
And to the extent that there are some fixes that can be put in 
place, we need to identify those and get about the business of 
doing it because this is, in fact, serious business.
    Mr. Wood. Mr. Chairman, I think you have very aptly 
summarized it. I think the basic thrust, the bottom-line 
mission from the Commission's standpoint would be that the EMP 
attack threat is one which is a curious sort of character, that 
we have prepared to cope with it for decades from a military 
standpoint, but have, for reasons that I addressed at the 
outset, didn't much concern ourselves with the civilian 
implications whatsoever. By doing so, we may have created 
something of a 21st century Maginot line for the United States, 
where we are relatively robust in our ability to wage war as 
far as EMP is concerned, but are exceedingly vulnerable on 
different fronts which invite, if they don't outright entice, 
flanking attacks against the American nation.
    Chairman Kyl. I thank you. For those who might not, again, 
be familiar with the background of the people who have served 
on this Commission, I don't think this country could have 
brought forth a better group of people, a smarter group of 
people with more expertise in some of the most esoteric aspects 
of science than the group of Commissioners here. We very much 
appreciate your service. Some of you have served in so many 
different capacities this government and our National security. 
We don't always think of you--I see these fine men and women 
here in the audience here with their uniforms on and we 
properly pay them all the thanks that we possibly can for what 
they are doing on the front line. It is also the fact that we 
have a lot of folks working here in Washington and elsewhere on 
very, very difficult problems that also help to ensure our 
security, and I want to thank all of those people, as well.
    So I thank all of you for being here today. We will follow 
up in all the ways that I think are indicated as appropriate 
here and see if we can at least provide a degree of security 
against the threat that we have identified here today. Thank 
you.
    This meeting is adjourned.
    [Whereupon, at 4:16 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
    [Additional material is being retained in the Committee 
files.] 

[GRAPHIC] [TIFF OMITTED] T1324.001

[GRAPHIC] [TIFF OMITTED] T1324.002

[GRAPHIC] [TIFF OMITTED] T1324.003

[GRAPHIC] [TIFF OMITTED] T1324.004

[GRAPHIC] [TIFF OMITTED] T1324.005

[GRAPHIC] [TIFF OMITTED] T1324.006

[GRAPHIC] [TIFF OMITTED] T1324.007

[GRAPHIC] [TIFF OMITTED] T1324.008

[GRAPHIC] [TIFF OMITTED] T1324.009

[GRAPHIC] [TIFF OMITTED] T1324.010

[GRAPHIC] [TIFF OMITTED] T1324.011

[GRAPHIC] [TIFF OMITTED] T1324.012

[GRAPHIC] [TIFF OMITTED] T1324.013

[GRAPHIC] [TIFF OMITTED] T1324.014

[GRAPHIC] [TIFF OMITTED] T1324.015

[GRAPHIC] [TIFF OMITTED] T1324.016

[GRAPHIC] [TIFF OMITTED] T1324.017

[GRAPHIC] [TIFF OMITTED] T1324.018

[GRAPHIC] [TIFF OMITTED] T1324.019

[GRAPHIC] [TIFF OMITTED] T1324.020

[GRAPHIC] [TIFF OMITTED] T1324.021

[GRAPHIC] [TIFF OMITTED] T1324.022

[GRAPHIC] [TIFF OMITTED] T1324.023

[GRAPHIC] [TIFF OMITTED] T1324.024

                                 <all>

</pre></body></html>
